            DEPARTMENT
               of HEALTH
              and HUMAN
                SERVICES



                    Fiscal Year

                    2010

Office of Inspector General


                 Justification of
                  Estimates for
     Appropriations Committees
The FY 2010 Congressional Justification is one of several documents that fulfill the Department
of Health and Human Services’ (HHS) performance planning and reporting requirements. HHS
achieves full compliance with the Government Performance and Results Act of 1993 and Office
of Management and Budget Circulars A-11 and A-136 through the HHS agencies’ FY 2010
Congressional Justifications and Online Performance Appendices, the Agency Financial Report,
and the HHS Citizens’ Report. These documents are available at
http://www.hhs.gov/asrt/ob/docbudget/index.html.

The FY 2010 Congressional Justifications and accompanying Online Performance Appendices
contain the updated FY 2008 Annual Performance Report and FY 2010 Annual Performance
Plan. The Agency Financial Report provides fiscal and high-level performance results. The HHS
Citizens’ Report summarizes key past and planned performance and financial information.
                       Message from the Inspector General

I am pleased to present the U.S. Department of Health and Human Services (HHS), Office of
Inspector General’s (OIG) fiscal year (FY) 2010 Justification of Estimates for Appropriations
Committees. This budget request supports the President’s priorities and reflects the goals and
objectives in the HHS FY 2007-2012 Strategic Plan, and includes the FY 2010 Annual
Performance Plan and FY 2008 Annual Performance Report as required by the Government
Performance and Results Act of 1993.

Additionally, in accordance with new reporting requirements established by the Inspector
General Reform Act of 2008 (Public Law 110-409), this budget request represents my office’s
aggregate requirements for meeting its responsibility to protect HHS beneficiary well-being and
program integrity by detecting and preventing fraud, waste, and abuse. It would fund expenses
necessary to meet OIG’s training needs; and required expenses associated with the Council of
Inspectors General on Integrity and Efficiency.

Since its establishment in 1976, this office has consistently achieved commendable results in
fulfilling its mission to protect the integrity of HHS programs and the health and welfare of HHS
program beneficiaries. OIG’s staff of more than 1,500 professionals carries out this mission
through a nationwide network of audits, evaluations, investigations, and enforcement and
compliance activities.

In conformance with the terms of our mandatory funding streams, we direct the majority of our
resources toward safeguarding the integrity of the Medicare and Medicaid programs and the
health and welfare of their beneficiaries. Consistent with our responsibility to oversee all
departmental programs, we direct our discretionary resources to ensure the efficiency and
effectiveness of HHS’s other programs and management processes, focusing on key issues
such as food and drug safety, conflict of interest and financial disclosure policies, oversight of
HHS discretionary programs, the awarding and administration of contracts, and grants
management.

As HHS programs and operating divisions grow in size, scope, and complexity, it is essential
that they are simultaneously protected against threats of fraud, waste, and abuse. In fact, since
FY 2000, total HHS outlays related to the Department’s more than 300 non-Medicare and
non-Medicaid programs have increased 63 percent, from $70 billion in FY 2000 to $114 billion in
FY 2008. During the same period, resources available to OIG for conducting oversight of those
programs have increased only by roughly the rate of inflation. Given OIG’s past positive
returns-on-investments, I am confident that the funding requested in this justification of
estimates will ensure similar future benefits for American taxpayers and their families.




                                                      Daniel R. Levinson
                                                      Inspector General
                                      OFFICE OF INSPECTOR GENERAL
                                FY 2010 PERFORMANCE BUDGET SUBMISSION


TABLE OF CONTENTS                                                                                                                  PAGE

ORGANIZATION CHART

EXECUTIVE SUMMARY
Introduction and Mission ...............................................................................................................1
FY 2010 Budget Overview ............................................................................................................2
All Purpose Table..........................................................................................................................5

BUDGET EXHIBITS
Appropriation Language................................................................................................................6
Amounts Available for Obligation..................................................................................................7
Summary of Changes – Discretionary Appropriation....................................................................8
Budget Authority by Activity ..........................................................................................................9
Authorizing Legislation................................................................................................................10
Appropriations History Table.......................................................................................................11

NARRATIVE BY ACTIVITY
Activity Header Table..................................................................................................................13
Program Description and Accomplishments ...............................................................................13
Funding History...........................................................................................................................18
Budget Request ..........................................................................................................................18

SUPPLEMENTARY TABLES
Outputs and Outcomes Tables ...................................................................................................19
Budget Authority by Object Class ...............................................................................................21
Salaries and Expenses ...............................................................................................................22
Detail of Full Time Equivalent Employment ................................................................................23
Detail of Positions .......................................................................................................................24
Programs Proposed for Elimination ............................................................................................26

SPECIAL REQUIREMENTS
FY 2010 HHS Enterprise Information Technology Fund/e-Gov Initiatives ..................................27
Summary of the Health Care Fraud and Abuse Control Program ..............................................28
FY 2008 HHS-OIG Expenditure of Labor-HHS Appropriations...................................................29
Description of OIG Labor-HHS Appropriations Resource Allocation Based on
Risk Assessment ........................................................................................................................30

IG SPECIFIC SECTIONS
Inspector General Specific Budget Requirements ......................................................................33
                                                  Department of Health and Human Services
                                                         Office of Inspector General
                                                            Organizational Chart


                                                                    Inspector General
                                                                 Daniel R. Levinson



                                                                Principal Deputy Inspector
                                                                          General
                                                                  Larry J. Goldberg


Deputy Inspector General        Deputy Inspector General        Deputy Inspector General for       Chief Counsel to the           Deputy Inspector General
   for Audit Services              for Investigations           Evaluations and Inspections         Inspector General            for Management and Policy
  Joseph Vengrin                  Timothy Menke                      Stuart Wright                  Lewis Morris                  Sam Shellenberger


  Assistant Inspector General     Assistant Inspector General       Assistant Inspector General    Assistant Inspector General      Assistant Inspector General
   for Centers for Medicare       for Investigations – Div. 1     for Evaluation and Inspections        for Legal Affairs           for Management and Policy
     and Medicaid Audits                 Gerry Roy                       Brian Ritchie                  Greg Demske                        Joe Roach
       George Reeb


  Assistant Inspector General     Assistant Inspector General
    for Grants and Internal       for Investigations – Div. 2
       Activities Audits              Donald Meeks
        Lori Pilcher


  Assistant Inspector General
  for Financial Management
   and Regional Operations
       Joseph Green


  Assistant Inspector General
       for General Audit
   Management and Policy
       John Hapchuk
EXECUTIVE SUMMARY                                              Department of Health & Human Services
                                                                            Office of Inspector General

  Introduction and Mission
  Agency Overview
  The Office of Inspector General (OIG) is an independent and objective oversight organization
  within the U.S. Department of Health and Human Services (HHS) that promotes economy,
  efficiency, and effectiveness through the elimination of waste, fraud, and abuse. In furtherance
  of its mission, OIG:

     •   conducts and supervises audits, investigations, inspections, and evaluations relating to
         HHS programs and operations;
     •   identifies systemic weaknesses giving rise to opportunities for fraud and abuse in HHS
         programs and operations and makes recommendations to prevent their recurrence;
     •   leads and coordinates activities to prevent and detect fraud and abuse in HHS programs
         and operations;
     •   detects wrongdoers and abusers of HHS programs and beneficiaries so that appropriate
         remedies may be brought to bear;
     •   keeps the Secretary and the Congress fully and currently informed about problems and
         efficiencies in the administration of HHS programs and operations and about the need
         for and progress of corrective action, including imposing sanctions against providers of
         health care under Medicare and Medicaid who commit certain prohibited acts.

  The OIG’s oversight priorities and annual allocation of budgeted resources are significantly
  influenced both by statutory mandates requiring OIG to conduct specified oversight activities
  and by requirements embedded in OIG’s various budget authorities. Further detail about the
  composition of OIG’s budget is included in the “Overview of Budget Request” section of this
  document.

  Agency Vision
  OIG envisions accomplishing many notable advances in program savings, integrity and
  efficiency, and quality of care by continuing to focus on an expanding docket of audits,
  investigations, and evaluations.

  Agency Mission
  The mission of OIG, as mandated by the Inspector General Act of 1978 (Public Law 95-452,
  as amended), is to:

     (1) conduct and supervise audits and investigations relating to the programs and
         operations of [HHS];
     (2) provide leadership and coordination and recommend policies for activities designed to
         promote economy, efficiency, and effectiveness in the administration of, and to prevent
         and detect fraud and abuse, in such programs and operations; and,
     (3) provide a means for keeping the [Secretary] and Congress fully and currently informed
         about problems and deficiencies relating to the administration of such programs and
         operations and the necessity for and progress of corrective action.




                                                                                             Page 1
EXECUTIVE SUMMARY                                               Department of Health & Human Services
                                                                             Office of Inspector General

  FY 2010 Budget Overview
  The fiscal year (FY) 2010 President’s Budget request for OIG is $50,279,000, which is an
  increase of $5,000,000 above the FY 2009 funding level. This budget request will enable OIG
  to maintain the FY 2009 President’s Budget authorized level of 260 Full-time Equivalent (FTE)
  staff, and includes funding for three state component error rate reviews for Temporary
  Assistance for Needy Families (TANF) as part of its Improper Payments Information Act of 2002
  (P.L. 107-300, “IPIA”) monitoring activities.

  Composition of the HHS OIG Budget
  OIG’s budget is comprised of multiple funding streams, including discretionary and mandatory
  (i.e., statutorily required) budget authorities. OIG’s discretionary budget authority, which is
  requested through the President’s Budget and appropriated through the annual Departments of
  Labor, Health and Human Services, and Education and Related Agencies Appropriations Act,
  provides funding for oversight of HHS’ more than 300 programs and operations administered in
  the following HHS operating and staff divisions:

      •   Administration for Children and Families (ACF),
      •   Agency for Health Care Research and Quality (AHRQ),
      •   Agency for Toxic Substances and Disease Registry (ATSDR),
      •   Administration on Aging (AoA),
      •   Centers for Disease Control and Prevention (CDC),
      •   Food and Drug Administration (FDA),
      •   Health Resources and Services Administration (HRSA),
      •   Indian Health Service (IHS),
      •   National Institutes of Health (NIH),
      •   Substance Abuse and Mental Health Services Administration (SAMHSA), and
      •   Office of the Secretary (OS), which includes staff divisions dedicated to departmental
          management and coordination such as the Assistant Secretary for Preparedness and
          Response (ASPR) and the Office of the National Coordinator (ONC) for Health
          Information Technology.

  OIG also receives separate funding for oversight activities related to the Centers for Medicare
  and Medicaid Services (CMS), and the Medicare and Medicaid programs specifically. OIG’s
  FY 2010 mandatory budget authorities are provided through the Health Care Fraud and Abuse
  Control (HCFAC) Program 1 , which was created by the Health Insurance Portability and
  Accountability Act of 1996 (P.L. 104-191, “HIPAA”), and the Medicaid Integrity Program, which
  was created by the Deficit Reduction Act of 2005 (P.L. 109-171, “DRA”).

  HHS OIG Oversight Priorities for Funds Provided through the Discretionary Appropriation
  As noted above, OIG’s oversight of the more than 300 non-Medicare and non-Medicaid HHS
  programs and operations is currently funded through the annual discretionary appropriation.
  OIG prioritizes its discretionary resources according to various performance planning
  processes, including identifying and reporting to the Secretary and Congress the top
  management and performance challenges facing HHS. 2 In FY 2008, the most recently
  completed year for which OIG identified and documented top management and performance
  challenges facing HHS, the following key areas were identified:

  •   Oversight of Food, Drugs, and Medical Devices and Biomedical Research – The Food and
      Drug Administration (FDA) is responsible for protecting and promoting public health by
                                                                                            Page 2
EXECUTIVE SUMMARY                                                  Department of Health & Human Services
                                                                                Office of Inspector General

      ensuring the safety, efficacy, and security of human and veterinary drugs, biological
      products, medical devices, the Nation’s food supply, cosmetics, and products that emit
      radiation. FDA is also responsible for protecting the rights, safety, and well-being of human
      subjects who participate in clinical trials conducted for the products it regulates.
      Concurrently, the National Institutes of Health (NIH) is responsible for acquiring knowledge
      through medical science that can help prevent, diagnose, and treat disease and disability.
      There are significant risks to public health and safety if the critical mandates assigned to
      FDA and NIH are not properly met. OIG will continue to conduct focused efforts to review
      and monitor the adequacy and effectiveness of FDA and NIH policies and programs.

  •   Grants Management – HHS is the largest grant-awarding agency in the Federal
      Government. During FY 2008, the Department issued grants totaling $265 billion ($41billion
      discretionary and $224 billion mandatory). The size and scope of HHS grant expenditures,
      coupled with unique vulnerabilities associated with the very nature of grants, have made
      grants management a significant area of focus for OIG. OIG, through its audits, evaluations,
      and investigations, will continue to conduct oversight activities that ensure that HHS’ grant
      moneys are used for their intended purposes and are overseen in an efficient and effective
      manner.

  •   Integrity of Information Systems and the Implementation of Health Information Technology –
      The Department faces the related challenges of ensuring the integrity of its information
      systems and developing a strategy and framework for advancing the development and
      adoption of a new interoperable nationwide Health Information Technology (HIT)
      infrastructure. This infrastructure will help to ensure reliability, confidentiality, privacy, and
      security when exchanging, storing, and using electronic health information. OIG will
      evaluate information systems controls and provide oversight of Federal information security
      programs, including oversight of HHS financial systems as well as systems used by HHS
      operating divisions, Medicare contractors and providers, and State Medicaid agencies.

  •   Ethics Program Oversight and Enforcement – OIG’s oversight of the Department’s ethics
      program includes activities ranging from evaluating agency ethics programs at selected
      operating divisions to determining whether agency programs comply with regulations issued
      by the Office of Government Ethics (OGE) and HHS, to investigating allegations of criminal
      ethics violations by current and former HHS employees. Since 2005, ethics program
      oversight has been identified as one of the Department’s top management challenges.

  HHS OIG Oversight Priorities for Funds Provided through Mandatory Appropriations
  OIG receives multiple mandatory appropriations dedicated to overseeing the integrity of CMS’s
  Medicare and Medicaid programs. OIG prioritizes how it uses resources provided through its
  mandatory appropriations according to its statutory requirements and performance planning
  processes. In FY 2008, the most recently completed year for which OIG identified and
  documented top management and performance challenges facing HHS, the following key areas
  were identified for oversight of Medicare and Medicaid:

  •   Oversight of Medicare Part D – According to the “2008 Annual Report of the Boards of
      Trustees of the Federal Hospital Insurance and Federal Supplementary Medical Insurance
      Trust Funds,” Part D expenditures for 2007 totaled $49.5 billion. 3 OIG experts believe that
      the magnitude of expenditures and the impact of this benefit on beneficiaries make it critical
      that Medicare Part D operate efficiently and effectively and be protected from fraud and

                                                                                                 Page 3
EXECUTIVE SUMMARY                                              Department of Health & Human Services
                                                                            Office of Inspector General

      abuse. Therefore, ensuring adequate oversight of the Part D program continues to be a
      significant priority.

  •   Medicare Integrity – In FY 2007, Medicare benefit payments totaled about $413 billion for
      services provided to approximately 44 million beneficiaries. The “2008 Annual Report of the
      Board of Trustees” projects that by the year 2017, Medicare expenditures will have more
      than doubled to $881 billion, and the number of Medicare beneficiaries will have grown to
      close to 57 million. To ensure both the solvency of the Trust Fund and beneficiaries’
      continued access to quality services, OIG will continue examining such areas as: payment
      error rates, durable medical equipment fraud, the Part B prescription drug program, inpatient
      services and other important areas.

  •   Medicaid and State Children’s Health Insurance Program (SCHIP) Integrity – Medicaid is a
      joint Federal-State program that provides medical assistance to an estimated 50 million
      Americans with low incomes or disabilities. In 2007, the Medicaid program accounted for
      nearly $350 billion in government health care spending, of which the Federal share was
      almost $191 billion. SCHIP provides coverage to uninsured low-income children who do not
      qualify for Medicaid. The magnitude and growth of health care expenditures, combined with
      the health and financial impacts of Medicaid and SCHIP on vulnerable populations, make it
      critical that these programs operate efficiently and effectively and be protected from fraud
      and abuse. Among the specific areas that OIG identified in FY 2008 as particularly
      noteworthy were: payment error rates, home-based and community-based care fraud,
      prescription drugs fraud, and the appropriateness of Federal and State cost-sharing
      formulas and arrangements.

  •   Quality of Care – Ensuring the quality of care provided to beneficiaries of Federal health
      care programs continues to be a high priority of OIG. Much of OIG’s enforcement work is
      focused on ensuring that resources are not improperly diverted from patient care, as well as
      preventing providers from withholding needed care or rendering unnecessary or even
      harmful services. OIG works with Department of Justice (DOJ), State Medicaid Fraud
      Control Units (MFCUs), and other State and local law enforcement offices to investigate and
      prosecute instances of substandard care that lead to patient harm.

  OIG will continue to address these issues and their root causes as oversight priorities in
  FY 2010. Additional details about these top management and performance challenges are
  available at http://oig.hhs.gov/publications/challenges.asp.




                                                                                            Page 4
EXECUTIVE SUMMARY                                                        Department of Health & Human Services
                                                                                      Office of Inspector General


                                               All Purpose Table


                                                                                                     FY 2010
                                                                                     FY 2009        President’s
                                                    FY 2008          FY 2009         Recovery         Budget
                                                     Actual          Omnibus           Act           Request
   Appropriated:
    Discretionary                                    43,231,000       45,279,000     17,000,000       50,279,000
     Total, Appropriated                             43,231,000       45,279,000     17,000,000       50,279,000

   Not Separately Appropriated:
    (in legislation)
    HCFAC                                           169,736,000     177,205,000                 -    177,205,000
    Medicaid Integrity Program (DRA)                 25,000,000      25,000,000                 -     25,000,000
    Trust Fund (Caps Proposal)                                -      18,967,000                 -     29,790,000

    HIPPA Collections/Cost Reimbursements            10,000,000      10,000,000               -       10,000,000
    Medicaid Fraud and Abuse Supplemental 1                   -      25,000,000               -                -
    Medicaid Fraud and Abuse Supplemental 2                   -               -     31,250,000                 -
     Total, Not Separately Appropriated             204,736,000     256,172,000     31,250,000       241,995,000

    Total Funding All Sources                       247,967,000     301,451,000     48,250,000       292,274,000

                                       Full Time Equivalent Employment

   Appropriated:
    Discretionary                                           271              260             60                 260
     Total, Appropriated                                    271              260             60                 260

   Not Separately Appropriated:
    (in legislation)
    HCFAC                                                 1,026            1,034                -          1,087
    Medicaid Integrity Program (DRA)/MFA 1/
   MFA 2                                                    203              205              -              208
    Trust Fund (Caps Proposal)                                -               26              -               26
    HIPPA Collections/Cost Reimbursements                    10               10              -               10
    Never Event                                               8                3              -                -
      Total, Not Separately Appropriated                  1,247            1,278              -            1,331
   Total FTE All Sources                                  1,518            1,538             60            1,591

  Note: Excludes discretionary reimbursable funding as follows: FY 2008 actual $17,259,000; FYs 2009 and 2010
  estimate $18,000,000.

  Note: Discrepancies between this table and the FY 2010 Budget Appendix are due to the exclusion of $10,000,000,
  and associated carryover, in HIPPA collections from the Budget Appendix in FYs 2008 through 2010.




                                                                                                          Page 5
BUDGET EXHIBITS                                                    Department of Health & Human Services
                                                                                Office of Inspector General


                                       Appropriation Language
   For expenses necessary for the Office of Inspector General, including the hire of passenger

   motor vehicles for investigations, in carrying out the provisions of the Inspector General Act of

   1978, [$45,279,000] $50,279,000: Provided, That of such amount, necessary sums shall be

   available for providing protective services to the Secretary of Health and Human Services and

   investigating non-payment of child support cases for which non-payment is a Federal offense

   under 18 U.S.C. Section 228: Provided further, That at least forty percent of the funds provided

   in this Act for the Office of Inspector General shall be used only for investigations, audits, and

   evaluations pertaining to the discretionary programs funded in this Act.

   (P.L. 111-8 Omnibus Appropriations Act, 2009)




                                                                                                Page 6
BUDGET EXHIBITS                                                                            Department of Health & Human Services
                                                                                                        Office of Inspector General


                                                      Amounts Available for Obligation

                                                                                                                         FY 2010
                                                                        FY 2008          FY 2009          FY 2009       President’s
                                                                         Actual          Omnibus        Recovery Act      Budget
 Discretionary Appropriation:
 Appropriation......................................................    $44,000,000     $45,279,000      $17,000,000     $50,279,000
 Reduction Pursuant P.L. 110-161......................                    -$769,000                --              --                 --
 Subtotal, adjusted appropriation .......................               $43,231,000     $45,279,000      $17,000,000     $50,279,000
 Unobligated balance lapsing..............................                -$176,000                --              --                 --
  Subtotal, discretionary obligations ...................               $43,055,000     $45,279,000      $17,000,000     $50,279,000


 Total, Discretionary Appropriation ................                    $43,055,000     $45,279,000      $17,000,000     $50,279,000


 Mandatory Appropriations:

 HIPAA/HCFAC (P.L 104-191, 109-432) ...........                        $169,736,000    $177,205,000                --   $177,205,000
 Medicaid Integrity Program (P.L. 109-171)........                      $25,000,000     $25,000,000                --    $25,000,000
 SAA, Medicaid Fraud and Abuse
 (P.L. 110-252) ....................................................              --    $25,000,000                --                 --
 Discretionary Caps - HCFAC (P.L. 111-8).........                                 --    $18,967,000                --    $29,790,000
 Medicaid Oversight (P.L. 111-5) ........................                         --               --    $31,250,000                  --


  Subtotal, mandatory appropriations.................
                                                                       $194,736,000    $246,172,000      $31,250,000    $231,995,000

 Total Obligations..............................................       $237,791,000    $291,451,000      $48,250,000    $282,274,000

      Note: Excludes discretionary reimbursable funding as follows: FY 2008 actual $17,259,000; FYs 2009 and 2010
      estimate $18,000,000.

      Note: Discrepancies between this table and the FY 2010 Budget Appendix are due to the exclusion of $10,000,000,
      and associated carryover, in HIPPA collections from the Budget Appendix in FYs 2008 through 2010.




                                                                                                                        Page 7
BUDGET EXHIBITS                                                     Department of Health & Human Services
                                                                                 Office of Inspector General

                         Summary of Changes – Discretionary Appropriation
   2009
           Total estimated budget authority (Obligations)......... ………………. $45,279,000

   2010
           Total estimated budget authority (Obligations)......... ………………. $50,279,000

             Net Change (Obligations)..................................... ………………..+$5,000,000



                                                    2009 Estimate           Change from Base
                                                             Budget                   Budget
                                                 FTE                       FTE
                                                            Authority                Authority

   Increases:
   A. Built In:
   1. Annualization of January 2009 pay raise    (260)    $32,378,000      (0)      +316,000
   2. Effect of January 2010 pay raise           (260)    $32,378,000      (0)    +$1,950,000
   3. Effect of rate changes for various                  $12,901,000      (0)    +$2,734,000
       mandatory charges (rent, SSF, IT &
       HHS initiatives, etc.)
          Subtotal, Built-In Increases                                     (0)     +$5,000,000

   Decreases:

   A. Program
   1. Reduction in Other Administrative                                                          --
       Expenses
         Subtotal, Decreases                                                                 --
   Net Change                                                                      +$5,000,000




                                                                                                      Page 8
BUDGET EXHIBITS                                                            Department of Health & Human Services
                                                                                        Office of Inspector General

                                            Budget Authority by Activity



                                               FY 2008                   FY 2009                  FY 2010
                                                Actual                   Omnibus             President’s Budget
                                           FTE        Amount         FTE        Amount        FTE        Amount

   Discretionary                               271     $43,231          260      $45,279          260     $50,279

   HCFAC (Mandatory)                         1,026    $169,736        1,034     $177,205        1,087    $177,205

   Discretionary Caps (HCFAC)                    --           --           26    $18,967            26    $29,790

   Medicaid Integrity Program/                 203     $25,000          205      $81,250          208     $25,000
   Medicaid Supplemental 1&2

   HIPAA Collections                             10    $10,000             10    $10,000            10    $10,000
                 4
   Never Event                                   8     [$1,931]             3    [$1,052]           --           --

   Total                                     1,518    $247,967        1,538     $332,701        1,591    $292,274


   Note: Excludes discretionary reimbursable funding as follows: FY 2008 actual $17,259,000; FYs 2009 and 2010
   estimate $18,000,000.

   Note: Discrepancies between this table and the FY 2010 Budget Appendix are due to the exclusion of $10,000,000,
   and associated carryover, in HIPPA collections from the Budget Appendix in FYs 2008 through 2010.




                                                                                                           Page 9
BUDGET EXHIBITS                                                                     Department of Health & Human Services
                                                                                                 Office of Inspector General


                                                          Authorizing Legislation

                                                               FY 2009                        FY 2010         FY 2010
                                                               Amount        FY 2009          Amount         President’s
                                                              Authorized   Appropriation     Authorized        Budget

   Office of Inspector General:

   Inspector General Act of 1978
   (P.L. 95-452, as amended) ...................              Indefinite   $45,279,000        Indefinite    $50,279,000

   Health Insurance Portability and
   Accountability Act of 1996
   (P.L. 104-191, P.L. 109-432),
   Mandatory HCFAC................................            Indefinite   $177,204,551       Indefinite    $177,204,551

   Omnibus Appropriations Act of 2009
   (P.L. 111-8), Discretionary Caps -
   HCFAC ..................................................   Indefinite   $18,967,000        Indefinite    $29,790,000

   Deficit Reduction Act of 2005
   (P.L. 109-171), Medicaid Integrity
   Program................................................. $25,000,000    $25,000,000      $25,000,000     $25,000,000

   Supplemental Appropriations Act of
   2008 (P.L. 110-252), Medicaid Fraud
   and Abuse ............................................. $25,000,000     $25,000,000      $25,000,000          --

   American Recovery and
   Reinvestment Act of 2009
   (P.L. 111-5), Medicaid Oversight ..........                    --       $31,250,000            --             --

   American Recovery and
   Reinvestment Act of 2009
   (P.L. 111-5), General Oversight............                    --       $17,000,000            --             --




                                                                                                              Page 10
BUDGET EXHIBITS                                           Department of Health & Human Services
                                                                       Office of Inspector General



                                Appropriations History Table


                                 Budget Estimate      House         Senate        Net Enacted
                                   to Congress      Allowance      Allowance      Appropriation

   FY 2000
   Discretionary Direct               31,500,000     29,000,000     35,000,000       31,500,000
    Rescission                                 --             --             --        -106,000
   HCFAC                             119,250,000              --             --     119,250,000

   FY 2001
   Discretionary Direct               33,849,000     31,394,000     33,849,000       33,849,000
    Rescission                          -151,000              --             --         -63,000
   HCFAC                             130,000,000    120,000,000    130,000,000      130,000,000

   FY 2002
   Discretionary Direct               35,786,000     35,786,000     35,786,000       35,786,000
    Rescission                                 --             –              –         -228,000
   HCFAC                             150,000,000    130,000,000    150,000,000      145,000,000

   FY 2003
   Discretionary Direct               39,497,000     39,497,000     39,497,000       39,300,000
    Rescission                                 --             --             –         -242,450
   HCFAC                             160,000,000    160,000,000    160,000,000      160,000,000

   FY 2004
   Discretionary Direct               39,497,000     39,497,000     39,497,000       39,094,000
    Rescission                                 --             --             --        -403,000
   HCFAC                             160,000,000    160,000,000    160,000,000      160,000,000

   FY 2005
   Discretionary Direct               40,323,000     40,323,000     40,323,000       39,930,000
    Rescission                                 --             --             --        -393,000
   HCFAC                             160,000,000    160,000,000    160,000,000      160,000,000
   Medicare Modernization Act                  --             --             --      25,000,000

   FY 2006
   Discretionary Direct               39,813,000     39,813,000     39,813,000       39,813,000
    Rescission                                 --             --             --        -398,000
   HCFAC                             160,000,000    160,000,000    160,000,000      160,000,000
   Medicaid Integrity Program         25,000,000     25,000,000     25,000,000       25,000,000

   FY 2007
   Discretionary Direct               43,760,000     41,415,000     43,760,000       39,808,000
   Discretionary Caps (HCFAC)         11,336,000              --             --               --
   HCFAC                             160,000,000    160,000,000    160,000,000      165,920,000
   Medicaid Integrity Program         25,000,000     25,000,000     25,000,000       25,000,000
   Never Events                                --             --             --       3,000,000




                                                                                    Page 11
BUDGET EXHIBITS                                             Department of Health & Human Services
                                                                         Office of Inspector General

                            Appropriations History Table (continued)


                                   Budget Estimate      House           Senate          Net Enacted
                                     to Congress      Allowance        Allowance        Appropriation
   FY 2008
   Discretionary Direct                 44,687,000     44,687,000       45,687,000         44,000,000
     Rescission                                  --             --               --          -769,000
   Discretionary Caps (HCFAC)           17,530,000     36,680,000       36,690,000                  --
   HCFAC                               169,736,000    169,736,000      169,736,000        169,736,000
   Medicaid Integrity Program           25,000,000     25,000,000       25,000,000         25,000,000
   FY 2009
                                        46,058,000     44,500,000       46,058,000         45,279,000
   Discretionary Direct
                                        18,967,000              --               --        18,967,000
   Discretionary Caps (HCFAC)
                                       174,998,000    174,998,000      174,998,000        177,205,000
   HCFAC
                                        25,000,000     25,000,000       25,000,000         25,000,000
   Medicaid Integrity Program
                                        25,000,000     25,000,000       25,000,000         25,000,000
   Medicaid Fraud & Abuse
     Supplemental
                                                 --               --               --      31,250,000
   Medicaid Oversight
     Supplemental
   FY 2010
                                        50,279,000
   Discretionary Direct
                                        29,790,000
   Discretionary Caps (HCFAC)
                                       177,205,000
   HCFAC
                                        25,000,000
   Medicaid Integrity Program




                                                                                          Page 12
NARRATIVE BY ACTIVITY                                                                    Department of Health & Human Services
                                                                                                     Office of Inspector General



                                                     Activity Header Table
                                                                                                            FY 2010                FY 2010 +/-
                                     FY 2008                 FY 2009                FY 2009                President’s              FY 2009
                                   Appropriation             Omnibus              Recovery Act           Budget Request             Omnibus
   Budget Authority
                                    $43,231,000            $45,279,000            $17,000,000              $50,279,000            +$5,000,000

   FTE                                   271                    260                     60                       260                       0


   Authorizing Legislation: Inspector General Act of 1978 (P.L. 95-452)

   FY 2009 Authorization .................................................................................................... Indefinite

   Allocation Method ................................................................................................... Direct Federal

   Program Description and Accomplishments
   Program Description
   OIG’s discretionary appropriation is used for conducting oversight of the Department’s more
   than 300 non-Medicare and non–Medicaid programs and operations.

   OIG accomplishes its mission of promoting economy, efficiency, and effectiveness in HHS
   programs and operations by conducting audits, investigations, and inspections; by providing
   industry guidance to HHS program participants; and, when appropriate, with the imposition of
   civil monetary penalties, assessments, and administrative sanctions against individuals and
   entities that violate program requirements.

   OIG is organized into five offices to carry out these activities, including the Office of Audit
   Services, Office of Investigations, Office of Evaluation and Inspections, Office of Counsel to the
   Inspector General, and Office of Management and Policy. OIG maintains a headquarters office
   in Washington, D.C. and has a nation-wide network of approximately 75 regional and field
   offices staffed by auditors, investigators, and program evaluators, with more than 80 percent of
   the workforce working outside the Washington, DC metropolitan area. At all levels, OIG staff
   work in close cooperation with the Department and its operating and staff divisions, the
   Department of Justice (DOJ) and other agencies in the Executive Branch, the Congress, and
   the States to bring about systemic changes, successful prosecutions, negotiated settlements,
   and recovery of funds to protect the integrity of HHS programs and expenditures and the well-
   being of beneficiaries.




                                                                                                                             Page 13
NARRATIVE BY ACTIVITY                                             Department of Health & Human Services
                                                                              Office of Inspector General

   Accomplishments
   OIG uses three performance measures to express the organization’s progress in accomplishing
   its mission of combating fraud, waste, and abuse and promoting economy, efficiency, and
   effectiveness in HHS programs and operations. These performance measures are:

          (1) a 3-year moving average of expected recoveries from investigative receivables and
              audit disallowances
          (2) a 3-year moving average of the return on investment from investigative receivables
              and audit disallowances
          (3) the number of accepted quality and management improvement recommendations

   OIG is a collaborative organization, and performance measures of its effectiveness reflect joint
   successes and interdependence with a network of oversight and enforcement partners at all
   levels of government. For example, OIG’s investigators and attorneys work closely with the
   DOJ, State Medicaid Fraud Control Units, and local law enforcement to develop cases and
   pursue appropriate enforcement actions. As a result of these close working relationships, OIG’s
   performance measures for expected recoveries and return on investment are affected by the
   external factors impacting our partner agencies. For example, the DOJ’s resource constraints
   and prosecutorial discretion affect the pursuit of criminal and civil enforcement actions in cases
   investigated and referred by OIG. Similarly, OIG’s impact in improving the economy, efficiency,
   and effectiveness of HHS programs and operations through audits and evaluations depends on
   the implementation of OIG recommendations by program managers and policymakers.
   Although OIG’s audit and evaluation reports include findings and recommendations intended to
   achieve cost savings or program improvements, OIG does not have the authority to implement
   the corrective actions it recommends. Instead, OIG recommendations inform Congress and the
   HHS program officials of the potential corrective actions that may be taken to address the
   vulnerabilities OIG observed.

   Because of this division of responsibilities for recommending and implementing program
   improvements, OIG reports in this justification the number of quality and management
   improvement recommendations accepted by HHS program managers for implementation.
   When OIG makes a recommendation to disallow costs or pursue administrative or policy
   improvements, HHS program managers have a fixed period of time to concur or nonconcur with
   each recommendation. However, some OIG recommendations are accepted by program
   managers but not implemented since the implementation of recommendations may be affected
   by the availability of resources and other factors.

   Summaries of OIG’s implemented and unimplemented recommendations are reported in the
   Semiannual Report to Congress and the Compendium of Unimplemented OIG
   Recommendations reports. These reports are available in the Publications section of the OIG
   Web site.

   Performance Measures and Reporting for “Expected Recoveries” and “Return on Investment”

   The OIG performance measure for expected recoveries expresses one important aspect of the
   direct financial benefits to the Government that result from OIG’s work. Expected recoveries are
   composed of financial recoveries expected to result from:

      •   audit disallowances that HHS program management has agreed to recoup;

                                                                                             Page 14
NARRATIVE BY ACTIVITY                                             Department of Health & Human Services
                                                                              Office of Inspector General

      •   investigative returns as a result of successful prosecutions, court-ordered restitution, and
          out-of-court settlements; and
      •   administrative enforcement actions during a given reporting period.

   Once OIG determines expected recoveries for a reporting period, various return-on-investment
   estimates are calculated. The return-on-investment measures are calculated as the ratio of
   expected recoveries to OIG’s annual operating budget, with the result being an expression of
   the financial benefit to the Government for funding OIG oversight activities. For example, a
   return on investment of $10:$1 would indicate that for every $1 provided to the OIG, the
   Government expects to receive $10 in direct financial recoveries.

   For both performance measures, expected recoveries and return on investment, performance is
   reported using a 3-year moving average. This methodology accounts for the inherent
   unpredictability in audit and investigations outcomes and the multiple years between the
   initiation of an OIG audit, evaluation, or investigation, and the resolution of those actions and
   recovery of funds. As a result of the multiyear duration and effects of external factors inherent
   in OIG’s oversight activities, there are often significant year-to-year variances in reported
   program outcomes. The 3-year moving average accounts for this variability and provides a
   more accurate depiction of results over time.

   OIG’s performance measures for expected recoveries and return on investment are reported at
   three levels: (1) OIG oversight of all HHS programs, (2) OIG oversight of Medicare and
   Medicaid only, and (3) OIG oversight of all HHS non-Medicare and non-Medicaid programs.

   The expected recoveries resulting from OIG investigative and audit oversight activities averaged
   $3.41 billion per year for the 3-year period from FY 2006 through FY 2008 and exceeded all
   previous reporting periods and exceeded the prior reporting period by 8.5 percent. These
   results include an average of more than $2.05 billion in investigative receivables and
   $1.36 million in audit disallowances. The corresponding return on investment for the OIG’s
   oversight of all programs and operations for the same 3-year reporting period was $14.5:$1.

   In HHS and OIG, approximately 80 percent of annual expenditures are related to the Medicare
   and Medicaid programs, which are administered by CMS. At OIG, oversight efforts dedicated to
   Medicare and Medicaid are enabled through funding provided by two sources: the HCFAC
   program, which was established by the Health Insurance Portability and Accountability Act of
   1996, and the Medicaid Integrity Program, which was established by the Deficit Reduction Act of
   2005. Both programs were created with the purpose of strengthening Government efforts to
   combat fraud, waste, and abuse in the Medicare and Medicaid programs.

   The significant majority of OIG’s expected recoveries are composed of audit disallowances and
   investigative receivables resulting from Medicare and Medicaid oversight. For the 3-year period
   from FY 2006 through FY 2008, OIG’s expected investigative receivables and audit
   disallowances resulting from Medicare and Medicaid oversight averaged $2.04 billion and
   $1.22 billion per year, respectively. The result was a Medicare and Medicaid specific return on
   investment for OIG oversight of $16.8:$1.

   The remaining approximately 20 percent of OIG’s budget comes from a single annual
   discretionary budget appropriation. In addition to using these discretionary funds for fulfilling
   OIG’s overall oversight mission in HHS, OIG also uses these resources to perform the growing
   number of required roles it fulfills within the Department. Among these important contributions

                                                                                             Page 15
NARRATIVE BY ACTIVITY                                             Department of Health & Human Services
                                                                              Office of Inspector General

   are investigating cases of interstate nonpayment of child support, conducting the annual
   financial statement audits and Federal Information Security Management Act of 2002
   compliance audits, and providing physical security for the HHS Secretary. As a result of OIG’s
   efforts in these areas, during the period from FY 2006 through FY 2008, the OIG investigative
   receivables and audit disallowances averaged $4 million and $139 million per year, respectively.
   The result was a return on investment of $3.4:$1 for OIG’s oversight and program integrity
   efforts related to a HHS’ non–Medicare and non-Medicaid programs and operations.

   Summaries of the audits and investigations that reached resolution during FY 2008 and
   contributed to these performance measures are included in the OIG semiannual reports to
   Congress, which are located at http://www.oig.hhs.gov/publications.asp.

   Samples of the outcome-oriented descriptions contained in the Semiannual Reports to
   Congress follow.

   Examples of Health Care Expected Recoveries:

   •   Cephalon to Pay $425 Million Plus Interest for Marketing Three of its Drugs for Uses Not
       Approved by the Food and Drug Administration. As part of a global criminal, civil, and
       administrative settlement, Cephalon, Inc., agreed to pay $375 million plus interest to resolve
       its False Claims Act liability for the off-label marketing (that is, marketing for uses not
       approved by the Food and Drug Administration) of the drugs Actiq, Gabitril, and Provigil; to
       plead guilty to a misdemeanor violation of the Federal Food, Drug, and Cosmetic Act; and to
       pay a $50 million criminal fine. Cephalon also agreed to enter a comprehensive five year
       corporate integrity agreement (CIA) that contains several unique provisions, including a
       requirement that Cephalon notify doctors about the settlement and establish a way for
       doctors to report questionable conduct by sales representatives.

   •   Hospital Agrees to Pay $88.9 Million in One of the Largest Civil Fraud Recoveries Ever
       Against an Individual Hospital. Staten Island University Hospital agreed to pay nearly
       $89 million to resolve allegations that it defrauded Medicare, Medicaid, and TRICARE (the
       military’s health insurance program). The settlement resolves two separate lawsuits filed in
       the U.S. District Court for the Eastern District of New York under the qui tam provisions of
       the False Claims Act and two investigations conducted by the United States, including one
       initiated under OIG’s Self-Disclosure Protocol. As part of the settlement, the hospital
       entered into a 5-year CIA.

   Example of Oversight of HHS’ Non–Medicare and Medicaid Programs:

   •   Philadelphia County’s Foster Care Claims. After reviewing Pennsylvania’s claims for Title
       IV-E reimbursement on behalf of Philadelphia County children in foster care for whom the
       per diem rates were $300 or less, OIG estimated that from October 1997 through
       September 2002, the State improperly claimed at least $56.5 million of the total
       $562.3 million (Federal share) claimed. As a result, OIG recommended that the State
       refund $56.5 million and work with the Administration for Children and Families to determine
       the allowability of $100 million related to claims that included both allowable and
       unallowable services. The State disagreed with the recommendations.




                                                                                             Page 16
NARRATIVE BY ACTIVITY                                             Department of Health & Human Services
                                                                              Office of Inspector General

   Performance Measure and Reporting for “Number of Accepted Quality and Management
   Improvement Recommendations”

   In addition to the direct financial recoveries described above, OIG reports the number of
   accepted quality and management improvement recommendations that resulted from audit and
   evaluation reports during a reporting period. This performance measure captures an important
   aspect of OIG’s efforts to identify and recommend corrections to systematic weaknesses in
   program administration and policy implementation. The measure also reflects a significant
   aspect of OIG’s contribution to improving the efficiency and effectiveness of the Department’s
   programs and operations.

   When OIG completes a report that includes recommendations for program managers to disallow
   costs or pursue administrative or policy improvements, HHS program managers have a fixed
   period of time to concur or nonconcur with each recommendation. The implementation of those
   recommendations may be affected by the availability of resources for implementation and other
   factors. As a result, some OIG recommendations are accepted by program managers but not
   implemented.

   During FY 2008, HHS Operating and Staff Divisions accepted 85 of OIG’s quality and
   management improvement recommendations. This result exceeded the annual target of 75 by
   13 percent.

   Summaries of the audits and evaluations that reached resolution during FY 2008 and
   contributed to this performance measure are included in the OIG semiannual reports to
   Congress, which are located at http://www.oig.hhs.gov/publications.asp.

   Samples of the outcome-oriented descriptions contained in the Semiannual Reports to
   Congress follow.

   Example of “Accepted Quality and Management Improvement Recommendations:”

   •   National Cancer Institute’s Monitoring of Research Project Grants. In a review of grants
       funded by the National Cancer Institute (NCI) for at least 1 year during FY 2004 through FY
       2006, we found that all grant files had the required progress reports and evidence of agency
       review; however, 41 percent of the progress reports were not received within the required
       timeframes. NCI, which is part of the National Institutes of Health (NIH), funded more than
       4,500 grants totaling $3 billion during the period of our review to support research into the
       causes, diagnosis, prevention, or treatment of cancer. NCI is responsible for monitoring
       grants, and grantees are required to submit progress and financial reports. We also found
       the following:

          o   Grantee financial reports were not monitored at the same level as the progress
              reports.
          o   Five of the nine grant closeouts in our sample were not completed within the
              timeframes specified in departmental guidelines.
          o   Grant files did not always have the required documentation for third-party monitoring
              of research grants.

       We recommend that NIH initiate earlier and more frequent followup with grantees to obtain
       required documents, improve grant monitoring by annually verifying grantees’ self-reported

                                                                                            Page 17
NARRATIVE BY ACTIVITY                                              Department of Health & Human Services
                                                                               Office of Inspector General

      fund balances with external sources, develop an approach for financial reviews that is not
      based solely on exception, and consistently document grantee correspondence and
      organize grant files to assist NCI staff and third-party reviewers in following grantees’ actions
      from inception of the grant to closeout. In its written comments to the report, NIH generally
      agreed with our recommendations and described actions it planned to take to improve its
      monitoring of research grants.


       American Recovery and Reinvestment Act of 2009 (P.L. 111-5, “Recovery Act”)

   In FY 2009, OIG received $48 million in funding related to the Recovery Act. The amount is
   available for OIG’s discretionary oversight of HHS programs and operations that received
   supplemental funding through the Recovery Act. These funds, which expire at the end of
   FY 2012, will be used primarily to conduct financial oversight activities that ensure that
   Recovery Act funds are used by HHS agencies and grantees for the intended purpose and in
   accordance with established requirements.


                                            Funding History
                                  FY 2005               $39,930.000
                                  FY 2006               $39,813,000
                                  FY 2007               $39,808,000
                                  FY 2008               $43,231,000
                                  FY 2009               $45,279,000

   Budget Request
   The FY 2010 budget request is $50,279,000, which is an increase of $5,000,000 above the
   FY 2009 President’s Budget request. The request is comprised of mandatory pay and other
   inflationary increases, including the Service and Supply Fund, and other Departmental
   initiatives. The discretionary funding also supports OIG’s obligation to perform financial
   statement audits for the Department, to conduct Federal Information Security Management Act
   of 2002 (FISMA) compliance audits, and to provide the security detail for the HHS Secretary,
   each of which involves costs that are increasing at a greater rate than OIG’s discretionary
   appropriation. The OIG’s FY 2010 budget request will enable OIG to maintain an FTE level of
   260.




                                                                                              Page 18
NARRATIVE BY ACTIVITY                                               Department of Health & Human Services
                                                                                Office of Inspector General


                                       Outputs and Outcomes Tables
   The following outcome and output tables reflect key aspects of organizational achievement
   towards accomplishing OIG’s mission.

   FY 2010 performance targets for key outcome measures 1.1.1 and 1.1.2 will be revised when
   two of the three years in the reporting period are completed (e.g., FY 2010 targets will be
   developed once FY 2009 data is validated). Likewise, the FY 2010 performance target for 1.1.3
   may be revised when OIG completes the FY 2010 work planning process in September, 2009;
   at which point, OIG management will have sufficient planning information to estimate expected
   performance levels and related performance outcomes.

   The estimated performance targets for expected recoveries and return on investment for
   FY 2010 are lower than FY 2009 as a result of increases in OIG funding related to the American
   Recovery and Reinvestment Act of 2009. The estimated targets, which will be adjusted at the
   beginning of FY 2010, are lower than prior year outcomes because the Recovery Act funds that
   OIG received are designated for specific oversight activities that are not likely to contribute
   significantly to expected recoveries.

                                              Key Outcomes Table

                                                 Most Recent       FY 2009    FY 2010      FY 2010 +/-
             6
   Measure                                         Result           Target   Est. Target    FY 2009

   1.1.1: Three-year moving average of
   expected recoveries resulting from           FY 2008: $3,268
                                                                   $3,470      $3,020          N/A
   OIG's health care oversight. (Dollars in    (Target Exceeded)
   millions) (Outcome)
   1.1.2: Three-year moving average of
                                                 FY 2008: $16.8
   the return on investment resulting from                          $16.6       $15.5          N/A
                                               (Target Exceeded)
   OIG’s health care oversight (Outcome)
   1.1.3: Number of quality and
                                                  FY 2008: 85
   management improvement                                            73          73            N/A
                                               (Target Exceeded)
   recommendations accepted (Outcome)

   Discretionary Program Level
                                                    $42.3           $45.3       $50.3          +$5
   Funding ($ in millions)


   Mandatory Program Level Funding
                                                    $204.7         $246.2      $241.9         -$4.3
   ($ in millions)


   Recovery Act Level Funding
                                                     N/A            $48.3        N/A           N/A
   ($ in millions)




                                                                                            Page 19
NARRATIVE BY ACTIVITY                                                Department of Health & Human Services
                                                                                 Office of Inspector General

                                             Key Outputs Table

                                                                                                FY 2010
                                              Most Recent         FY 2009        FY 2010
   Measure                                                                                        +/-
                                                Result             Target       Est. Target
                                                                                                FY 2009

   Number of final evaluation reports
                                                   45                45             45              --
   issued


   Timeliness – Percentage of draft
   evaluation reports issued within 1 year        57%               45%             45%             --
   of start 7


   Number of final audit reports issued           381               245             265            20


   Timeliness – Percentage of audit
                                                  60%               60%             60%             --
   reports issued within 1 year of start


   Number of complaints received for
                                                 4,832              N/A             N/A            N/A
   investigation


   Number investigative cases opened             2,121             1,938            N/A            N/A



   Number investigative cases closed             1,922             1,736           1,736            --


   Discretionary Program Level
                                                  42.3             $45.3           $50.3           +$5
   Funding ($ in millions)


   Mandatory Program Level Funding
                                                 204.7            $246.2          $241.9          -$4.3
   ($ in millions)


   Recovery Act Level Funding
                                                  N/A              $48.3            N/A          -$48.3
   ($ in millions)


   Note: The performance information reported in these tables represents the outcomes and outputs that
   resulted from OIG’s total oversight effort, not just the efforts funded through the discretionary
   appropriation. Furthermore, target estimates for FY 2010 are subject to change depending on final
   FY 2009 data.

   Note: OIG funding provided through the Recovery Act will be expended during FYs 2009 through 2012.
   This table reflects OIG’s Recovery Act budget authority, not the spending plan.



                                                                                                 Page 20
SUPPLEMENTARY TABLES                                                                       Department of Health & Human Services
                                                                                                        Office of Inspector General


                                                  Budget Authority by Object Class
                                                                                     2009             2010        Increase or
                                                                                    Estimate         Estimate      Decrease

  Personnel Compensation:
      Full-time Permanent (11.1) ....................................             $23,825,000      $25,495,000   +$1,670,000
      Other than Full-time Permanent (11.3) ..................                       389,000          416,000       +27,000
      Other Personnel Compensation (11.5) ..................                         337,000          361,000       +24,000
      Military Personnel (11.7) ........................................               65,000          68,000        +3,000
          Subtotal Personnel Compensation ................                        $24,616,000      $26,340,000   +$1,724,000
  Civilian Personnel Benefits (12.1)...............................                 7,739,000        8,280,000     +541,000
  Military Benefits (12.2) ................................................            23,000          24,000        +1,000
  Benefits to Former Personnel (13.0)...........................                               0            0              0
  Total Pay Costs ........................................................        $32,378,000      $34,644,000   +$2,266,000


  Travel (21.0)................................................................     1,685,000        1,886,000     +201,000
  Transportation of Things (22.0)...................................                 529,000          591,000       +62,000
  Rental Payments to GSA (23.1)..................................                   3,308,000        3,701,000     +393,000
  Rental Payments to Others (23.2) ..............................                    102,000          114,000       +12,000
  Communications, Utilities, & Misc. Charges (23.3).....                             598,000          669,000       +71,000
  Printing and Reproduction (24.0) ................................
                                                                                       37,000          42,000        +5,000

  Other Contractual Services
      Advisory and Assistance Services (25.1)...............                           77,000          87,000       +10,000
      Other Services (25.2) .............................................            217,000          243,000       +26,000
      Purchases of Goods and Services from                                          5,021,000        6,817,000    +1,796,000
      Other Government Accounts (25.3) .......................
      Operations and Maintenance (25.7).......................                       195,000          218,000       +23,000
          Subtotal Contractual Services .......................                    $5,510,000       $7,365,000   +$1,855,000
  Supplies and Materials................................................             256,000          286,000       +30,000
  Equipment ...................................................................      876,000          981,000      +105,000
  Total Non-pay Costs .................................................           $12,901,000      $15,635,000   +$2,734,000
  Total BA by Object Class .........................................
                                                                                  $45,279,000      $50,279,000   +$5,000,000




                                                                                                                     Page 21
SUPPLEMENTARY TABLES                                                                      Department of Health & Human Services
                                                                                                       Office of Inspector General


                                                           Salaries and Expenses
                                                                                    2009             2010         Increase or
                                                                                   Estimate         Estimate       Decrease

  Personnel Compensation:
       Full-time Permanent (11.1) ...................................             $23,825,000     $25,495,000     +$1,670,000
       Other than Full-time Permanent (11.3).................                        389,000         416,000         +27,000
       Other Personnel Compensation (11.5).................                          337,000         361,000         +24,000
       Military Personnel (11.7).......................................               65,000          68,000           +3,000
             Subtotal Personnel Compensation.............                         $24,616,000     $26,340,000     +$1,724,000
  Civilian Personnel Benefits (12.1)...............................                 7,739,000       8,280,000       +541,000
  Military Benefits (12.2) ................................................           23,000          24,000           +1,000
  Benefits to Former Personnel (13.0)...........................                              0             0                 0
  Total Pay Costs .........................................................       $32,378,000     $34,644,000     +$2,266,000
  Travel (21.0)................................................................     1,685,000       1,886,000       +201,000
  Transportation of Things (22.0)...................................                 529,000         591,000         +62,000
  Rental Payments to Others (23.2) ..............................                    102,000         114,000         +12,000
  Communications, Utilities, & Misc. Charges (23.3).....                             598,000         669,000         +71,000
  Printing and Reproduction (24.0) ................................                   37,000          42,000           +5,000


  Other Contractual Services:
       Advisory and Assistance Services (25.1) .............                          77,000          87,000         +10,000
       Other Services (25.2)............................................             217,000         243,000           26,000
       Purchases of Goods and Services from Other
                                                                                    5,021,000       6,817,000      +1,796,000
         Government Accounts (25.3)..............................
       Operations and Maintenance (25.7) .....................                       195,000         218,000         +23,000
     Subtotal Contractual Services .............................                   $5,510,000      $7,365,000     +$1,855,000

                                                                                     256,000         286,000         +30,000
  Supplies and Materials (26.0) .....................................
  Total Non-pay Costs .................................................            $8,717,000     $10,953,000     +$2,236,000
  Total Salary and Expense.........................................               $41,095,000     $45,597,000     +$4,502,000
  Direct FTE ..................................................................     260               260             0




                                                                                                                    Page 22
SUPPLEMENTARY TABLES                                                                       Department of Health & Human Services
                                                                                                        Office of Inspector General


                                      Detail of Full Time Equivalent Employment
                                                  2008       2008      2008      2009         2009      2009     2010         2010      2010
                                                 Actual     Actual     Actual    Est.         Est.      Est.     Est.         Est.      Est.
                                                 Civilian   Military   Total    Civilian     Military   Total   Civilian     Military   Total
 Discretionary
  Direct....................................      256          1        257      245            1       246      245            1       246
  Reimbursable.......................             14           0         14       14            0       14        14            0       14
   Subtotal..............................         270          1        271      259            1       260      259            1       260

 HCFAC
  Direct....................................       0           0         0        0             0         0       0             0         0
  Reimbursable.......................            1,026         0       1,026    1,034           0       1,034   1,087           0       1,087
   Subtotal .............................        1,026         0       1,026    1,034           0       1,034   1,087           0       1,087

 Medicaid Integrity Program/
 Medicaid Supplemental
  Direct....................................      203          0        203      205            0       205      208            0       208
  Reimbursable.......................              0           0         0        0             0        0        0             0        0
   Subtotal..............................         203          0        203      205            0       205      208            0       208

 HIPPA Collections
  Direct....................................       10          0        10        10            0        10       10            0        10
  Reimbursable.......................               0          0        0         0             0         0       0             0         0
   Subtotal..............................          10          0        10        10            0        10       10            0        10

 Discretionary Caps - HCFAC
  Direct....................................        0          0         0        0             0         0       0             0         0
  Reimbursable.......................               0          0         0        26            0        26       26            0        26
   Subtotal..............................           0          0         0        26            0        26       26            0        26

 Never Event
  Direct....................................        8          0         8         3            0        3         0            0        0
  Reimbursable.......................               0          0         0         0            0        0         0            0        0
   Subtotal..............................           8          0         8         3            0        3         0            0        0


 Total .......................................   1,517         1       1,518    1,537           1       1,538   1,590           1       1,591




                                                                                                                           Page 23
SUPPLEMENTARY TABLES                                             Department of Health & Human Services
                                                                              Office of Inspector General

                                          Detail of Positions

                                                2008               2009               2010
                                                Actual            Estimate           Estimate

  Executive Level IV                                        1                  1                  1

    Total – Executive Level Salaries               $149,000           $167,232           $174,757

  ES-10                                          $2,208,117         $2,466,967         $2,577,981

    Total – Executive Service Positions                    14                 15                 15

    Total – Executive Service Salaries           $2,357,117         $2,634,199         $2,752,738

  GS-15                                                    84                 84                 85

  GS-14                                                   183                185                190

  GS-13                                                   550                550                566

  GS-12                                                   383                384                395

  GS-11                                                   109                122                130

  GS-10                                                     1                  1                  1

  GS-9                                                    118                121                128

  GS-8                                                      9                  9                  9

  GS-7                                                     50                 50                 55

  GS-6                                                      5                  5                  5

  GS-5                                                      6                  6                  6

  GS-4                                                      2                  2                  2

  GS-3                                                      1                  1                  1

  GS-2                                                      1                  1                  1

  GS-1                                                      0                  0                  0

    Total – General Schedule Positions                   1,502           1,521              1,574

    Total – General Schedule Salary            $183,566,555       $196,132,959       $202,409,214

  Average ES Level

  Average ES Salary                                $157,723           $164,464           $171,865

  Average GS Grade                                        12.2               12.2               12.2

  Average GS Salary                                $122,215           $128,950           $128,595

  Average Comm. Corp Level                                  1                  1                  1

  Average Comm. Corp Salary                         $86,093            $88,676            $92,223



                                                                                           Page 24
SUPPLEMENTARY TABLES                                            Department of Health & Human Services
                                                                             Office of Inspector General

                              Average GS Grade
               FY 2004 ......................................    11.9

               FY 2005 ......................................    12.1

               FY 2006 ......................................    12.0

               FY 2007 ......................................    12.0

               FY 2008 ......................................    12.2

               FY 2009 (est.) .............................      12.2




                                                                                          Page 25
SUPPLEMENTARY TABLES                                             Department of Health & Human Services
                                                                              Office of Inspector General


  Programs Proposed for Elimination
  The Office of Inspector General's (OIG) plans to improve the efficiency of its health care fraud
  and abuse operations, and redirect personnel to high-volume fraud areas.

  OIG plans to consolidate offices for two reasons. First, OIG seeks to focus its health care fraud
  and abuse resources in certain geographic areas based on population trends, the number of
  Medicare and Medicaid beneficiaries, and the volume of identified health care fraud. These
  focus areas are Texas, southern California, and southern Florida. Second, the consolidation is
  cost effective. In the field offices listed below, some have been staffed by one agent and none
  currently has more than two. In total, only 17 agents have been employed in the 11 offices.
  Thus, it is inefficient to continue to incur overhead for offices that have so few staff.

  All affected personnel were given the option to be reassigned to other OIG offices and will be
  reimbursed for their relocation expenses within existing OIG budgets. As these agents request
  and receive transfers to other OIG offices, the above offices will close no later than April 2010
  (specific closure dates are not yet available). The affected OIG field offices are:

  •   Concord, New Hampshire
  •   Essex Junction, Vermont
  •   Pittsburgh, Pennsylvania
  •   Wilmington, Delaware
  •   Rockville, Maryland
  •   Knoxville, Tennessee
  •   EI Paso, Texas
  •   Billings, Montana
  •   Fargo, North Dakota
  •   Cheyenne, Wyoming
  •   Anchorage, Alaska




                                                                                            Page 26
SPECIAL REQUIREMENTS                                                        Department of Health & Human Services
                                                                                         Office of Inspector General

  FY 2010 HHS Enterprise Information Technology Fund/e-Gov Initiatives
  The OIG will contribute $160,901 of its FY 2010 budget to support Department enterprise
  information technology initiatives as well as E-Government initiatives. Operating Division
  contributions are combined to create an Enterprise Information Technology (EIT) Fund that
  finances both the specific HHS information technology initiatives identified through the HHS
  Information Technology Capital Planning and Investment Control process and E-Government
  initiatives. These HHS enterprise initiatives meet cross-functional criteria and are approved by
  the HHS IT Investment Review Board based on funding availability and business case benefits.
  Development is collaborative in nature and achieves HHS enterprise-wide goals that produce
  common technology, promote common standards, and enable data and system interoperability.

  Of the amount specified above, $6,272.16 is allocated to support E-Government initiatives for
  FY 2010. This amount supports the E-Government initiatives as follows:

                FY 2010 HHS Contributions to E-Gov Initiatives*                              OIG
                  Line of Business - Human Resources                                        $3,021.67
                  Line of Business - Financial                                              $1,167.14
                  Line of Business - Budget Formulation and Execution                         $776.15
                  Line of Business - IT Infrastructure                                      $1,307.20
                E-Gov Initiatives Total                                                     $6,272.16

  Note: The total for all HHS FY 2010 inter-agency E-Government and Line of Business contributions for the initiatives
  identified above, and any new development items, is not currently projected by the Federal CIO Council to increase
  above the FY 2009 aggregate level. Specific levels presented here are subject to change, as redistributions to meet
  changes in resource demands are assessed.

  Prospective benefits from these initiatives are:

  Lines of Business-Human Resources Management: Provides standardized and interoperable
  HR solutions utilizing common core functionality to support the strategic management of Human
  Capital. HHS has been selected as a Center of Excellence and will be leveraging its HR
  investments to provide services to other Federal agencies.

  Lines of Business –Financial Management: Supports efficient and improved business
  performance while ensuring integrity in accountability, financial controls and mission
  effectiveness by enhancing process improvements; achieving cost savings; standardizing
  business processes and data models; promoting seamless data exchanges between Federal
  agencies; and, strengthening internal controls.

  Lines of Business-Budget Formulation and Execution: Allows sharing across the Federal
  government of common budget formulation and execution practices and processes resulting in
  improved practices within HHS.

  Lines of Business-IT Infrastructure: This initiative provides the potential to leverage spending on
  commodity IT infrastructure to gain savings; to promote and use common, interoperable
  architectures that enable data sharing and data standardization; secure data interchanges; and,
  to grow a Federal workforce with interchangeable skills and tool sets.




                                                                                                             Page 27
SPECIAL REQUIREMENTS                                          Department of Health & Human Services
                                                                           Office of Inspector General

  Summary of the Health Care Fraud and Abuse Control Program
  The Office of Inspector General should include a short statement of information about the Fraud
  and Abuse Control Program, describing in general terms, the guidelines established for the
  program and overall program effort.

  Efforts to combat fraud in Medicare and Medicaid were consolidated and strengthened under
  Public Law 104-191, the Health Insurance Portability and Accountability Act of 1996 (HIPAA).
  The HIPAA established a national Health Care Fraud and Abuse Control Program (HCFAC),
  under the joint direction of the Attorney General and the Secretary of HHS acting through the
  Department's Inspector General. The HCFAC program is designed to coordinate Federal, State
  and local law enforcement activities with respect to health care fraud and abuse. The Act
  requires HHS and DOJ to detail in an Annual Report the amounts deposited and appropriated to
  the Medicare Trust Fund, as a result of HCFAC funded activities and the sources of such
  deposits. Additional details about the report are available at
  http://www.oig.hhs.gov/publications.html.

  The HCFAC program underwent a program assessment in 2002. The assessment cited the
  program’s strong financial practices and demonstrated anecdotal success as strengths and
  identified the lack of a measurable baseline of health care fraud from which to measure program
  success as a weakness. To improve upon the identified weakness, OIG is revising its annual
  performance reporting framework to better communicate the contribution of OIG’s various
  oversight activities towards promoting economy, efficiency, and effectiveness and at combating
  fraud, waste, and abuse in HHS programs.




                                                                                         Page 28
SPECIAL REQUIREMENTS                                                                                   Department of Health & Human Services
                                                                                                                    Office of Inspector General



                                 FY 2008 HHS-OIG Expenditure of Labor-HHS Appropriations
                                          for Oversight of HHS Operating and Staff Divisions
                                                           (Dollars in millions)

                                                                                                  FY 2008        FY 2008
                                                                                               Spending on     Spending on
                                                                                               Discretionary    Mandatory
                                                                                                Programs        Programs      FY 2008 Total
 HHS Operating Divisions                                                                        Oversight       Oversight       HHS-OIG
 Administration for Children and Families ..............................                           6.02           12.62           18.64
 Agency for Healthcare Research and Quality .......................                                0.04                            0.04
 Administration on Aging ........................................................                  0.13                            0.13
 Agency for Toxic Substances and Disease Registry ............                                     0.02                            0.02
 Centers for Disease Control and Prevention.........................                               7.30                            7.30
 Food and Drug Administration...............................................                       2.93                            2.93
 Health Resources and Services Administration ....................                                 4.13                            4.13
 Indian Health Service ............................................................                0.76                            0.76
 National Institutes of Health ..................................................                  3.54                            3.54
 Substance Abuse and Mental Health Services
 Administration........................................................................            0.60                            0.60
 Office of the Secretary of HHS ..............................................                     4.96                            4.96
 Total .....................................................................................       30.43          12.62           43.05




                                                                                                                                 Page 29
SPECIAL REQUIREMENTS                                            Department of Health & Human Services
                                                                             Office of Inspector General

  Description of OIG Labor-HHS Appropriations Resource Allocation Based on Risk
  Assessment

  Factors Used To Allocate Resources
  OIG allocates the discretionary and mandatory resources described above through its annual
  work planning process. The Committee requested that we describe this process.

  At the beginning of each FY, OIG issues its annual Work Plan, which describes the specific
  audits and evaluations that OIG has underway or plans to initiate in the FY ahead with its
  discretionary and statutorily mandated resources. It also provides general focus areas for OIG’s
  investigative, enforcement, and compliance activities. Work planning is an ongoing and
  dynamic process in OIG, and adjustments are made throughout the year to meet priorities and
  to anticipate and respond to emerging issues with the resources available. The FY 2009 edition
  and OIG’s Work Plans from previous years are available on the Internet at
  http://oig.hhs.gov/publications.asp.

  OIG’s work plan development is guided by OIG’s mission and statutory obligations, including
  those tied to its statutory funding streams mentioned above and its annual assessments of the
  top management and performance challenges facing HHS, which are described in greater detail
  in subsequent sections of this document.

  To develop proposals for specific projects and activities, OIG undertakes a comprehensive work
  planning process. OIG engages its stakeholders, including those in HHS Operating and Staff
  Divisions, the Office of Management and Budget (OMB), and Congress, to identify the issues of
  greatest priority to its stakeholders and with the greatest potential impact on HHS programs or
  beneficiaries. In addition, OIG coordinates with and reviews the work of other oversight entities,
  such as the Government Accountability Office (GAO) and the Medicare Payment Advisory
  Committee (MedPAC), to identify vulnerabilities that may warrant further attention and to ensure
  that OIG’s work is not duplicative of others’ efforts. OIG also offers to meet with congressional
  staff of committees of jurisdiction once the Work Plan is published. During discussions with
  staff, OIG frequently receives input that shapes planned work or influences areas OIG develops
  for future work. OIG also stays attuned to the latest developments and events affecting the
  Nation’s health care, public health, and human services programs and beneficiaries.

  In evaluating specific work plan proposals, OIG considers a number of factors, including the
  following:

     •   requirements for OIG reviews, as set forth in laws, regulations, or other directives;
     •   requests made or concerns raised by Congress and HHS’s management;
     •   significant management and performance challenges facing HHS, which OIG identifies
         as part of HHS’s annual agency financial report;
     •   work performed by partner organizations;
     •   management’s actions to implement OIG recommendations from previous reviews; and
     •   timeliness (e.g., a program is approaching reauthorization).

  Statutorily required reviews are conducted in accordance with the scope prescribed in specific
  legislation. For reviews that are not specifically required by law, OIG makes assessments of
  relative risks in the programs for which OIG has oversight authority to identify the areas most in


                                                                                            Page 30
SPECIAL REQUIREMENTS                                             Department of Health & Human Services
                                                                              Office of Inspector General

  need of attention, and, accordingly, to set priorities for the sequence and proportion of
  resources to be allocated. A fundamental component of the work planning process is the
  assessment of relative Federal risks, which is described in greater detail in the next section, as
  requested by the subcommittee.

  Assessments of Relative Federal Risks

  Chief among risk factors are the levels of vulnerability of program funds to fraud, waste, and
  abuse based on known or possible weaknesses in program and management controls and the
  effect of HHS program policies and operations on beneficiaries, providers, and others.
  Accordingly, in assessing risks, OIG evaluates the likelihood of occurrence and the magnitude
  of impact. For example, weak internal controls may signal a greater likelihood of fraud, waste,
  or abuse and the number of beneficiaries served by a program may be an indicator of
  consequential impact.

  OIG explores the potential impact of vulnerabilities in new areas (or areas that have not been
  reviewed in recent years) by examining the extent to which the consequence of
  mismanagement, noncompliance, or other deficiencies in a specific program area could:

     •   compound known and inherent financial risks;
     •   endanger or have negative impacts on public health or quality of care;
     •   undermine the intent and effectiveness of human service programs; or
     •   reduce productivity, economy, or efficiency of operations or systems (e.g., contractor
         selection and performance, information security, and critical infrastructure protection).

  It is important to point out that many of the vulnerabilities we study were identified in OIG work
  conducted in prior years or are inherent to the program environment (e.g., financial
  vulnerabilities associated with high dollar outlays, newly budgeted or increased outlays, or high
  or unknown payment error rates). Two OIG publications are particularly useful in identifying the
  need for additional work with regard to previously identified or inherent vulnerabilities: the “Top
  HHS Management and Performance Challenges” and the “Compendium of Unimplemented
  Office of Inspector General Recommendations.”

  Risk Assessments of Discretionary Programs

  In addition to the general assessment of relative Federal risks that OIG conducts regularly, OIG
  initiated in FY 2008 a specific, formal risk assessment process focused on seven HHS agencies
  to further ensure effective use of discretionary resources. In April 2008, OIG launched a
  structured risk assessment process based on an Enterprise Risk Management framework
  developed by the Committee on Sponsoring Organization’s (COSO) Treadway Commission,
  which is widely used by auditors and management to identify and manage risks. 8 COSO issued
  its internal control framework to help businesses and other entities assess and enhance their
  internal control systems (COSO I), which has been incorporated into Federal policies, rules and
  regulations, including Office of Management and Budget Circular A-123 assessments and
  Government auditing standards. COSO subsequently developed its enterprise risk
  management framework (COSO II) to address internal control needs while moving towards a
  more complete risk management process.




                                                                                             Page 31
SPECIAL REQUIREMENTS                                             Department of Health & Human Services
                                                                              Office of Inspector General

  OIG used COSO II to conduct a risk assessment of programs in seven HHS agencies to ensure
  that OIG’s work plan optimizes available discretionary funds. The seven HHS agencies
  included:

     •   Administration for Children and Families;
     •   Centers for Disease Control and Prevention;
     •   Food and Drug Administration;
     •   Health Resources and Services Administration;
     •   Indian Health Service;
     •   National Institutes of Health; and
     •   Substance Abuse and Mental Health Services Administration.

  For each agency, OIG examined eight common management components:

     •   Internal Environment. OIG reviewed the organization’s risk management philosophy,
         integrity standards, and ethical values.
     •   Objectives. OIG determined whether the organization’s performance objectives
         supported and aligned with its mission.
     •   Event Identification. OIG reviewed how the organization identified internal and external
         events and distinguished them as either risks or opportunities.
     •   Risk Assessment. OIG reviewed the organization’s analysis of risks for their likelihood
         and impact and how to manage them.
     •   Risk Response. OIG reviewed the organization’s selection of risk responses—to avoid,
         accept, reduce, or share the risk.
     •   Control Activities. OIG assessed the policies and procedures implemented to carry out
         risk responses.
     •   Information and Communication. OIG examined how the organization identifies relevant
         information, captures it, and communicates it in a form and a timeframe that enables
         people to do their jobs.
     •   Monitoring. OIG determined whether the organization monitors its programs and
         processes through customary activities, separate evaluations, or both.

  Specific risk factors associated with these eight components were assessed and rated for each
  agency based on the likelihood of an occurrence and the magnitude of the impact. The results,
  along with other information obtained during the risk assessment, were used to determine an
  overall risk rating for the agency (low, moderate, high or critical). The results were then used to
  analyze discretionary audit proposals and set priorities to ensure that audit resources were
  being directed to the most critical assignments.




                                                                                             Page 32
IG SPECIFIC SECTIONS                                             Department of Health & Human Services
                                                                              Office of Inspector General


                        Inspector General Specific Budget Requirements
   Pursuant to the Inspector General Reform Act of 2008, section 6 of the Inspector General Act of
   1978 (5 U.S.C. App.) was amended by adding:

          “(f)(1) For each fiscal year, an Inspector General shall transmit a budget estimate
          and request to the head of the establishment or designated Federal entity to
          which the Inspector General reports. The budget request shall specify the
          aggregate amount of funds requested for such fiscal year for the operations of
          that Inspector General and shall specify the amount requested for all training
          needs, including a certification from the Inspector General that the amount
          requested satisfies all training requirements for the Inspector General’s office for
          that fiscal year, and any resources necessary to support the Council of
          Inspectors General for Integrity and Efficiency. Resources necessary to support
          the Council of Inspectors General on Integrity and Efficiency shall be specifically
          identified and justified in the budget request.

          (2) In transmitting a proposed budget to the President for approval, the head of
          each establishment or designated Federal entity shall include –

          (A)    an aggregate request for the Inspector General;
          (B)    amounts for Inspector General training;
          (C)    amounts for support of the Council of Inspectors General on Integrity and
                 Efficiency; and
          (D)    any comments of the affected Inspector General with respect to the
                 proposal.

          (3) The President shall include in each budget of the United States Government
          submitted to Congress –

          (A)    a separate budget statement of the budget estimate prepared in
                 accordance with paragraph (1);
          (B)    the amount requested by the President for each Inspector General;
          (C)    the amount requested by the President for training of Inspectors General;
          (D)    the amount requested by the President in support for the Council of
                 Inspectors General on Integrity and Efficiency; and
          (E)    any comments of the affected Inspector General with respect to the
                 proposal if the Inspector General concludes that the budget submitted by
                 the President would substantially inhibit the Inspector General from
                 performing the duties of the office.”




                                                                                             Page 33
IG SPECIFIC SECTIONS                                            Department of Health & Human Services
                                                                             Office of Inspector General

   HHS OIG meets the aforementioned reporting requirements established through the IG Reform
   Act by providing the following information:

   HHS OIG Training Requirements
   In accordance with requirements established in section (f)(3)(C) of the IG Reform Act, this
   budget requests $2.5 million in FY 2010 for training expenses, of which a portion of this amount
   will be funded from the discretionary budget This amount is comprised of OIG’s baseline
   training budget for its entire staff, which includes more than 1,500 criminal investigators,
   auditors, program evaluators, attorneys, and administrative and management staff.

   HHS OIG Financial Support for the Council of Inspectors General on Integrity and Efficiency
   In support of the Government-wide Inspector General community, HHS OIG contributes funds to
   the Council of Inspectors General on Integrity and Efficiency (CIGIE) for such expenses as
   maintaining www.IGNet.gov, maintaining the awards nomination database, providing legal
   assistance, and hosting the annual awards ceremony. In accordance with the reporting
   requirements established by section (f)(3)(D) of the IG Reform Act, this budget requests
   $834,000 in necessary expenses for the HHS OIG’s support of CIGIE, of which a portion of this
   amount will be funded from the discretionary budget.




                                                                                           Page 34
Endnotes                                                               Department of Health & Human Services
                                                                                    Office of Inspector General


   1
           The allocation of available HCFAC program funds to OIG was increased above the initial $160
           million per year cap established in HIPAA as a result of the Tax Relief and Health Care Act of
           2006 (P.L. 109-492), which provides annual inflationary increases above the cap at the annual
           level of the CPI for all urban consumers. TRHCA increases occur during FYs 2006 through 2010,
           at which point the maximum HCFAC allocation to OIG is capped at the FY 2010 level.

           The Omnibus Appropriations Act of 2009 (P.L. 111-8) also provides OIG with health care fraud
           and abuse resources by implementing another cap adjustment to rectify the imbalance between
           inflationary cost increases that occurred between FY 2000 and FY 2003, when OIG reached its
           maximum HCFAC allocation of $160 million, and the reduction in spending power that resulted
           from capped HCFAC funding.
   2
           See the FY 2008 HHS Agency Financial Report: http://www.hhs.gov/afr.
   3
           See the 2008 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
           Federal Supplementary Medical Insurance Trust Funds:
           http://www.ssa.gov/OACT/TR/TR08/tr08.pdf
   4
           The Tax Relief and Health Care Act of 2006 (P.L. 109-432) provided OIG with $3 million to
           conduct a study on the occurrence of “never events,” which are serious, life endangering or costly
           medical error that should never have occurred. These funds are available for OIG expenditure
           until January 1, 2010.
   5
           This amount represents HHS investigative receivables only; receivables of other Federal
           agencies, the States, and other entities are not included here.
   6
           Performance measures 1.1.1 and 1.1.2 reflect the three year moving average ending in the year
           indicated by the column heading. OIG does not develop targets for outcome measures 1.1.1 and
           1.1.2 until two of the three years included in the reporting period are complete and actual data
           has been verified.
   7
           The timeframe for this measure is the amount of time between an approved evaluation design
           and a signed draft report (or a signed final report if no draft report was issued).
   8
           COSO was formed in 1985 to sponsor the National Commission on Fraudulent Financial
           Reporting, an independent private-sector initiative which studied the causal factors that can lead
           to fraudulent financial reporting. The original chairman of the National Commission was James
           C. Treadway, Jr.; hence, the popular name "Treadway Commission." See http://www.coso.org.




                                                                                                     Page 35
